*>•

No.

9 p-&F
'■J

->

■

&7
O

-,/;

' [' r

V \
'^'L
H v.^.: J L1 "Y.i/~'".
_

THE SUPREME COURT OF THE UNITED STATES
IN THE
DISTRICT OF COLUMBIA

I

§uP~me counTris-^
RLF:D

NOV 1 0 2023
OFFICE OF l HE CLERK

MARIE JOY TANAMOR- STEFFAN
PETITIONER

VS.

WILLIAM BARR, ATTY. GENERAL, CHAD WOLF, SECRETARY OF
DEPARTMENT OF HOMELAND SECURITY, GARY CHAMBERLAIN,
FIELD OFFICE DIRECTOR OF NEW ORLEANS US ICE

PETITION FOR WRIT OF HABEAS CORPUS
Marie Joy Tanamor-Steffan
072733411
3843 Stagg Avenue
Basile LA 70515

RECEIVED

1.

DEC - 7 2020

- i

%

OBJECTIVE
1. In the mercy of the Supreme Court of the United States of America, here the
alien petitioner would like the sitting Honorable Justices to consider the exceptional
circumstances of the matter and the imminent impact that can be potentially will result
into an irreparable injury to the petitioner alien. Petitioner alien is seeking a release from
any federal custody through a Humanitarian Parole Release, see. C.F.R. 212.5(b)(1) or
any Declaratory or Injunctive Relief that is seem to be deem and proper. The alien is
under chronic care of respiratory disease called asthma and chronic care for allergies.
Therefore, the Petition For Writ Of Habeas Corpus should be favorably granted.

CUSTODY
2. Petitioner is in physical custody of respondent and is detained at (SLEPC)
South Louisiana ICE Processing Center of GEO at 3843 Stagg Ave. Basile LA 70515
pursuant to contractual agreement with the Department of Homeland Security.

JURISDICTION
3. Petitioner is now detained in the custody of respondent at (SLIPC) South
Louisiana ICE Processing Center of GEO Corporation at 3843 Stagg Ave. Basile LA
70515.
4. This Court has the subject matter jurisdiction over this Petition under 28U.S.C
2241 (power to grant Habeas Corpus) and 28 U.S.C. 1651 ( All Writs Act); and the
Administrative Procedural Act, 5U.S.C. 701.
5.The action arise under the United States Constitution, the Immigration
Nationality Act of 1952, as amended, 8U.S.C. 2241 et. seq. ( “The Act”) and the
Administrative Procedural Act, 5 U.S. C. 701 et, seq. And The All Writs Act, 28 U.S.C.
1361.
6. The District Court shall have the original jurisdiction of all civil actions arising
under the constitution, treaties or laws of the United States.28U.S.C. 1391.

2.

PARTIES
7. Respondent William Barr is named in his official capacity as the Attorney
General of the United States of America. He is responsible of the administration of the
immigration laws as exercised by the Executive Office for Immigration Review, 8U.S.C.
1103 (g). He routinely transacts business with this facility. As such he is the legal
custodian of the Petitioner. His address is United States Attorney General, Department
Of Justice, 950 Pennsylvania Ave. NW, Washington DC 20530-0001.
8. Respondent Chad Wolf is named in his official capacity as the secretary of the
DHS. His address is MS-0285, Department Of Homeland Security. 2707 Martin Luther
King Jr, Avenue. SE, Washington DC 20528-525. He is responsible for the
administration of the immigration laws 8U.S.C. 1103(a). He routinely transacts business
with this facility. As such he is the legal custodian of the Petitioner.
9. Respondent Gary Chamberlain is named in his official capacity as the ICE
Field Office Director of New Orleans. In this capacity he is the legal custodian of the
petitioner. His address is 1250 Poydras St. Suite 325, New Orleans LA 70113.
PRELIMANARY STATEMENT
lO.This case challenges the government authority (Immigration Custom Enforcer
Officers, Department Of Homeland Security) to indefinitely detain without the
substantial “burden ofproof’ to support the finding of dangerousness or flight risk. It
ask that this Court will grant the petitioner release from prolonged immigration
detention.
11. Petitioner was not and is not now detained on the account of security or
terrorism concerns. 8C.F.R 114(d)(1).
12. Petitioner is not an alien with a “highly contagious disease) posing a danger to
the public health”. 8C.F.R. 241.14(b).
13. Petitioner has not committed a violent crime as defined 18U.S.C. (f)(1). Her
release therefore would not pose a special danger to the society. 8C.F.R. 241.14(f).

3.

14. World Health Organization on March 11, 2020 declare a global pandemic of
a very dangerous and harmful disease, a virus called COVID 19.
15.Currently CNN News has covered the data of the COVID 19. The severe
damages of the virus. The data showed on October 19, 2020 globally there
is 39,858,453 cases of people infected with COVID 19 and 1,112.142
people died. The affected Human Beings are in total of millions and
counting since there is or are no vaccine or medicine known to man that is
scientifically approve by WHO (world Health Organization) or any federal
agency and is available to the large public.
16.1nthe United States Of America on October 19, 2020 there are 8,147,060
cases of people infected with the virus COVID 19 and 219,667 resulted to
deaths of the people infected with COVID 19. And daily statistics showed
as CNN News covers the virus COVID 19 data on the daily people here in
the United States is averaging more than new 55,000 cases getting infected
with COVID 19.
17. World Health Organization declare that people with an underlying
conditions, health related issues such as Respiratory Diseases, Heart
Diseases, Chronic or Liver Diseases, Anxiety and other mental illness and
compromised immune system (such as from cancer,HIV, or autoimmune
disease) are more susceptible to the COVID 19 virus and upon contracting
the virus there more likely to die from it rather than recover from the virus.
18. My father Elino Tanamor, whom had financially supported me while being
detained under federal custody had contracted the virus “COVID 19” while
at work. Employed by the company Suite Services Inc. at 1019 U Street
N.W., Washington DC 20001. April 2020 my father contracted the virus and
died in May 2020 at Holy Cross Hospital of Montgomery County MD. The
Virus in fact is very deadly. My last conversation to my father, the last time
I heard my fathers voice was less than a week when he went to the hospital
unknowingly. I never was able to say goodbye to my only father nor I
thought he will contract the deadly disease because symptoms describe by
Center For Disease Control (CDC) never persisted during those time. He
was working. Never have taken a day or two to say, He was not feeling well
from such any of the symptoms.

4.

19. The sudden death of my father from COVID 19 have brought me to a very
unstable emotional issues that have resulted into a psychiatric care. They
come to a conclusion of giving me a medication called Buspar. A
psychiatric drug hoping it will aide the situation. I had informed ICE in the
premature stage during the diagnose of my father contracting COVID 19
and ICE had offer nothing of any assistance.
20.Of the fatality of the COVID 19 virus in fact Atty. General William Barr
declare a mandate of the release of the prisoner in effect of the spread of the
virus. Some county and federal detainees serving time in there criminal
charges was release on behalf of the matter that is a becoming of a
HUMANITARIAN issue for the well being of the prisoner whom have
health related issues. The Government of the United States cannot just let
an inmate die of the virus but indeed inmates have died upon getting
infected with the virus called “COVID 19”. In the current matter of Lasalle
ICE Processing Center at Jena, LA. Detained alien tested positive of
COVID 19. Currently as to this date while being detained federal inmates
are still getting infected with COVID 19. As much as CDC giving the
guidelines in regard to COVID 19, a deadly virus it has not stop nor
prevented the detained inmate from contracting the virus.
21.During the brink of the COVID 19 pandemic of early March 2020. the
petitioner alien submitted a request to ICE, to an ICE Officer Derek Long.
After a while of waiting for a response, an official document stating the true
facts in which ICE, ICE officers have not answered the request, I submitted
another updated request to the replacement ICE Officer after there 45 days
rotation of work scheduled in the (SLIPC) South Louisiana ICE Processing
Center. The petitioner submitted a request of a Humanitarian Parole Release
because the petitioner was and is under the chronic care of asthma, and
under chronic care of severe allergy. The asthma is a respiratory lung
disease that on the event that I will contract the disease, I'm more likely to
die than recover from COVID 19. The humanitarian parole request is a
preventative measure and an urgent one.
22. Since then,ICE Officers have not given the detained alien in the GEO
Facility a response, the petitioner alien submitted again a package for a
“Humanitarian Parole Release” because of my underlying condition, my
asthma, allergies and now my psychiatric medication of the event that took
place while being detained . The package contains supporting evidence that
the petitioner has a strong ties to the community, the petitioner is

5.

rehabilitated, is not a danger to the society and is under chronic care of a
respiratory disease, chronic care of allergy and of recent matter under a
psychiatric care. See C.F.R. 212.5 (b)(l)(b)(2)This was submitted to ICE
Officers and mailed to Gary Chamberlain, the current ICE Field Office
Director New Orleans on June 2020.
23. As of today's date the petitioner has not officially received an answer of the
Humanitarian Parole Release after the several attempt of submitting a
Humanitarian Parole Release through the ICE mail box and on US postal
delivery address to the current ICE Field Director of New Orleans. The
matter is completely unfair and devastating because the matter is pertaining
to a human life that at risk in comparison to the majority being detained but
yet it is and was ignored and still is ignored by ICE (Immigration Custom
Enforcement). A humanitarian parole release is different from the custody
review conducted by ICE on a cycle of 90, 120 and 180 days. The 2 matters
are completely different. It should be address in the matter of how its
presented by the petitioner alien.
24. Consistent with the United States Constitution through Immigration
Nationality Act there is a parole and conditional parole. Where once life is
threaten by confinement then this exceptional circumstances exist, it shall
be given in a factor for consideration. ICE, ICE Officers has not and have
never conducted any interview to the alien upon the alien submission of the
humanitarian parole release of March 2020 until the last submission on
June 2020. 8C.F.R. 212.5(b)(1). Evidence of documents submitted to ICE is
in alien petitioner possession.
8C.F.R. 212.5(b)(1) Parole of aliens into the United States
(b) The parole ofalien within thefollowing groups who have been or are
detained in accordance with 235.3(c) of this chapter would be justified only
by case to case basis for “urgent humanitarian reasons or significant
public benefit”, provided the alien present neither a security risk nor risk of
absconding.
(1) Aliens who have serious medical conditions in which continued
detention would not be appropriate.
(b) conditions
(2) community ties such as close relatives with known addresses.

6.

25.The C0VID19 virus is still unsolved and the petitioner is still in chronic
care for the asthma and allergy. The situation in the facility will more
likely than not will do harm to the petitioner. Contracting COVID 19 will
severely harm the alien petitioner if the prolonged incarceration continue.
26.This matter is an urgent one.
27. April 20,2020 a class action lawsuit was brought to the Supreme Court
“Fraihat v. ICE” because of COVID 19 relating to people, inmates, alien
being detained with health related issues and the facility poor diet issues
and conditions of the confinement.
28. As use to be an ICE Officers comes to the unit to do there rounds and I
asked about my humanitarian parole release request. He and few several
will always a comment that the prison is the safest place for me because
there is no COVID 19. Such fact is not true because at the time of the
outbreak until June there was no conducting of inmates COVID 19 Test.
When the facility conducted the test there was a few results that an alien
detained is tested positive of COVED 19. The facility official till this day
denies whenever there is, a staff or alien test positive of COVID 19. The
facility is not and will never be the safest place in this time of COVID 19.
There is a continuance of detained alien contracting the virus. Ask ICE the
list from medical of the inmates whom have contracted of COVED 19.1 Beg
the Justices of the Supreme Court to review the matter of my prolonged
detention and the factors. The health issues with the Humanitarian Crisis,
“COVID 19”.
29. The constant exposure of different traffic of the staff or inmate coming
from the outside of the society will somehow lead to the possibility of
contracting COVED 19. The incident of emergency evacuation twice had
happened is the potential exposure of COVID 19. Exposure to COVID 19 is
a constant threat of my life safety, my life. The poor sanitation and poor
unbalance diet is not a healthy resolution for a person who is suffering a
medical condition. I beg the Justices of the supreme court to review the
matter of my prolonged detention. The health issues with the Humanitarian
Crisis, “COVID 19”.I would not want to die in prison upon contracting
COVED 19.

7.

30. The constant possibility of exposure to COVED 19 is an eminent threat of
my safety, my life. Prolonged incarceration is an appropriate at this matter
where once own life is threaten. Justice Kennedy concurring opinion on
Hyunh Joon Kim v. Charles Demore (Supreme Court Jan. 15. 2003- April
29. 2003L
“For similar reasons, since the Due Process Clause prohibits arbitrary deprivations of
liberty, a lawful permanent resident alien such as respondent could be entitled to an
individualized determination as to his risk offlight and dangerousness ifthe continued
detention became unreasonable or unjustified. Zadvydas, 533 US, at 684-686, 150 L Ed
2d 653, 121 S Ct 2491;id, at 721, 150 L Ed 2d 653, 121 S Ct 2491(Kennedy, J,
dissenting) ("Aliens are entitled to be free from detention that is arbitrary or
capricious"). Were there to be an unreasonable delay by the INS in pursuing and
completing deportation proceedings, it could become necessary then to inquire whether
the detention is not to facilitate deportation, or to protect against risk offlight or
dangerousness, {538 U.S. 533}but to incarcerate for other reasons. That is not a proper
inference, however, either from the statutory scheme itselforfrom the circumstances of
this case. The Court's careful opinion is consistent with these premises, and Ijoin it in
full.”
31. Petitioner has exhausted administrative remedies.
32. For the reasons set forth above, The Petition For Writ OF Habeas Corpus
shall be Granted.

STATEMENTS OF FACTS AND OF PROCEDURAL HISTORY

33. July 1991 the petitioner alien entered the United States Of America holding
a G-5 visa. Of 1994 the petitioner has adjusted her status as a legal
permanent resident obtain from the American bom husband, a US citizen.
The petitioner alien has been a Legal Permanent Resident for 28 years.
34. The petitioner alien has an 8 year old United States Citizen son residing in
Maryland with the father, my husband whom had formerly served the
United States Military. My family and I have been living in our current
address for 7 years. I the mother is a graduate honor in a medical field here
in the United States.
8.

35.The petitioner alien has been in ICE Custody since August of 2018. Have
appeal to the BIA twice and got remanded in the first appeal. The second
appeal to the BIA, the BIA after affirming the Immigration Judge decision
on November 1, 2019 made this statement on the decision, “Contrary to
the respondent's arguments on the appeal, she is not eligiblefor the
waiver of inadmissibility under section 212(h) of the Act 8 U.S.C. 1182
(IJ at 7-8; Respondent Br. At 1). At the time of her removal hearing on
January 24, 2019, she was not the beneficiary of an approved or even
pending visa petition filed on her behalf by her lawful permanent
husband or otherfamily member (IJ at 8) ”. But of the statement the BIA
made of the decision on November 1, 2020 never upheld there very on
statement. BIA departed from that statement by denying the Motion To
Reopen.
36.1nstantly the petitioner alien appearing pro se on December 16, 2019 a
Motion To Reopen was filed to the BIA. The MTR was filed on time and
consist of a new evidence, a material element that will prove to change the
outcome of the case, the immigration proceeding. Here is my statements of
the case after the BIA denied the Motion To Reopen.
37.0n Aug. 25,2020 the Fifth Circuit Court Of Appeals Dismiss Alien
Petitioner, 072733411 Petition For Review case no. 20-60577 for Lack Of
Jurisdiction to review the Motion To Reopen denied by the BIA on June
25,2020. On September 11, 2020, Petition For Writ Of Certiorari was
docketed No. 20-5679.
38.Precedent of the matter Seventh Circuit Court Of Appeals case Kucana v.
Holder and both Fifth Circuit Court Of Appeals cases, Dada v. Mukasey
and Reyes-Mata v. Lynch were dismissed for Lack of Jurisdiction.
39.1n the matter of Motion To Reopen Kucana v. Holder, Kucana filed for the
second time a motion to reopen. In the matter of motion to reopen of Dada
v. Mukasey motions were intertwined with the equitable tolling for
withdrawing the voluntary departure in the motion to filed the motion to
reopen. In the matter of the motion to reopen Reyes-Mata v. Lynch filled
the motion to reopen pass the 90 days of the equitable tolling.

9.

40. Of those 3 Motion To Reopen cases mention above Kucana v. Holder on the
seventh circuit, Dada v. Mukasev and Reves-Mata v. Lynch of the fifth
circuit. Here the petitioner alien Tanamor-Steffan in this matter of the
Motion To Reopen filed the Motion To Reopen for the very first time. See 8
U.S.C. 1229a (c)(7), filed the MTR by Dec. 16, 2019 from the issued of the
removal from the BIA on Nov. 1,2019,45 days later. See 8 U.S.C. 1229a
(c)(7) (C)(i). Petitioner alien is in compliance to both regulations
established by United States Constitution but still the BIA deny the MTR. I
found the decisions made by the BIA and Fifth Circuit Court Of Appeals
were unjust and unfair.
41. Dec. 16, 2019 before the 90 days expiration of the time tolling for filling a
MTR, the alien filed to the BIA by submitting the newly found evidence so
vital for the procedural mechanism and requirements to readjust for the
waiver sought the INA 212h. See 8 U.S.C. 1229 a(c)(7)(C)(i). See Kucana
v. Holder 588 U.S. 233, 242 (Supreme Court Jan. 20, 2010).
42.0n governing more of the pursuant of the establish regulations of 8 U.S.C.
1229a (4)(A)(B)- (4)Application For Relief From Removal. (A)in general.
An alien applying for relief or protection from removal. (B)sustaining the
burden of proof. In the context of the reading 8 U.S.C. 1229a (4)(A)(B),
the alien in fact followed and complied with the regulations established by
the United States Government as an Immigration Law.
43.The petitioner alien submitted the 1130 Petition For Alien Relative. 1601
Application For Waiver For Grounds Of Inadmissibility and 1485
Application to Register Permanent Residence or Adjust Status, all of
evidentiary materials adjudicated bv the USCIS on December 2019 of
my Motion To Reopen of my brief seeking relief or protection of removal
from United States for the INA 212h. See 8 U.S.C. 1229a (4)(A)(B). See
Bracamontes v. Holder 675 F. 3d 380 (4th Cir March 29, 2020).
44. Furthermore in the pursuant and practice or 8 U.S.C. 1229a(4)(A)(i)(ii)(4)Application For Relief From Removal. (A) In general. An alien applying
for relief from removal, (i)satisfies the applicable requirements, (ii) with
respect to any form of relief that is granted in the exercise of a favorable
discretion. In the practice of that regulations on January 24, 2019,

10.

Honorable Judge Cassie Thogersen statement to the alien on page 134
number 19 “You have to have someone file an 1130 for you, so you can
readjust before the court”. Number 23. “You would be able to readjust
before the court your aggravatedfelony”. This statement of the Honorable
Judge is in respect for the favorable discretion is well stated and established
for the purpose of 8U.S.C. 1229 (4)(A)(ii) or else the Honorable Judge
would have not made the statement in the courtroom and of 8 U.S.C.
1229a(4)(A)(i) to satisfies the applicable requirements as of the material
evidence are the 1130,1601 and 1485. The petitioner alien has followed
every step of the way the established regulations as it read in the pursuant
of 8 U.S.C. 1229a(4)(A)(i)(ii).
45. To foreclose an additional arguments of the statutory right to file one
motion to reopen enclosing the components, the new affidavits or
evidentiary materials needed to be proven during the time at the hearing
held, the petitioner alien is seem to be in the compliance of the established
regulations for the purpose of the immigration law except to the fact, that
the BLA denied the Motion To Reopen and Fifth Circuit Court Of Appeals
dismiss the Petition Of Review.
46.1n observance and practice of 8 U.S.C. 1229afc¥7¥BV The IIRIRA Act of
1996 Pub. L. No. 104-208 110 Stat. 3000-546, provides every alien ordered
removed from the United States has a right to file one (1) Motion To
Reopen his or her removal proceedings. (B)Contents. The motion to reopen
shall state the new facts that will be proven at a hearing to be held if the
motion is granted and shall be supported by affidavits or evidentiary
material. The petitioner alien MTR should be favorable granted upon the
reading of 8 U.S.C. 1229a(c)(7)(B). See Dada v. Mukasey 544 U.S. 1,18
(Supreme Court Jan. 16,2008) on U.S.C. 1229a(c)(7) or 8 C.F.R.
1003.23(b)(1) on Reyes-Vargas v. Barr 958 F.3d 1295 (10th Cir. May
14,2020).
47.Upon governing the pursuant of U.S.C. 1103(a)(l)(3) and 8U.S.C. 1103 (g)
(1)(2), delegated powers in the pursuant and practice of the immigration
law there is, the decisions that are made in this case thus needed or have
becoming question of laws that in need a further consideration for a review.
Those following above mention for the purpose of Immigration Law is
substantial to pursue the jurisdiction search for the Petition Of Review and
to pursue the Motion To Reopen to be granted.

11.

48.1f by any further reasoning of the interpretation of the reading of 8 U.S.C
1229a (4)(A)(B), 8 U.S.C. 1229a(4)(A)(i)(ii), 8 U.S.C. 1229a(c)(7)(B), 8
C.F.R. 1003.23(b)(1),U.S.C. 1103(a)(l)(3) and 8U.S.C. 1103 (g)(l)(2) for
the purpose of the immigration law on this case is otherwise not consistent
with what had been explained by the petitioner alien above then the quoting
of Chevron USA Inc, v. Nat. Res. Def. Council Inc. 467 TJ.S. 837.843 n9
104 S Ct. 2778.81 LEd 694 (19841 is so does apply, it would be unjust and
unfair to the petitioner and to my family.
“A court cannot wave the ambiguityflagjust because itfound the
regulation impenetrable on the first read”. Id. Instead, a court must
carefully consider the text, structure, history, and purpose ofa regulation,
in all the ways it would if it had no agency to fall back on. ” Id. (internal
quotation marks, citation, and alteration omitted.)
49.The alien petitioner from the Philippines made a legal admission to the
United States with a G-5 visa on July 1991. Has been an Legal Permanent
Resident since 1994 from the petition filed therein of my United States
Citizen husband.
50.The petitioner alien has an 8 year old United States Citizen son residing in
Maryland with the father, my husband whom had formerly served the
United States Military. I the mother is a graduate honor in a medical field
here in the United states. My son is in need of me, just like every other
child whom need both of their parents in this very challenging world we are
all living in. My husband struggle to cope the parental responsibilities as
well as the financial and psychological matter of my absence. It is apparent
that my family is in need of me.. So, tragically the only father I have, his
grandfather, the father in law whom I had mention previously to the BLA on
my brief and in the immigration court establishing the hardship we have, I
have in my family. My father, Elino Tanamor on May 2020 while at work at
Washington DC has contracted the COVID 19 and died at Holy Cross
Hospital at Montgomery County MD. The hardship in my family is very
transparent more than ever now from the passing of my father, the
grandfather as well as the father in law support system as he had been to my
family.

12.

51.The petitioner alien has been incarcerated under federal custody for 40
months and ongoing, serve 18 months of the 24 months sentence in the
criminal charges in respect to the good behavior maintain during
incarceration. Currently not one single write up for any disciplinary action.
Throughout my incarceration I have been employed for 2 years. The
courage for change and rehabilitation is foreseeable.
52.1 have been detained by Immigration Custom Enforcement at a GEO
Corporation facility since August of 2018. The petitioner alien prays that
this court will, assume jurisdiction over this matter, grant such relief as the
court deems just and proper, grant such a release from anymore further
detention.
53.The petitioner alien seek forgiveness and compassion from the court. My 8
year old son needs me dearly. My husband needs me as well. Please allow
my family to be together again and try one more time in this most difficult
and challenging time of out families lives.
54.May your Honorable Judges may find some mercy and compassion. Please
forgive me. Thank You.
VERIFIED PETITION FOR WRIT OF HABEAS CORPUS
55.Petitioner, Marie Joy Tanamor-Steffan appearing pro se. hereby petition this
Court for this Petition For Writ Of Habeas Corpus and seeks declaratory
and injunctive relief to review the lawfulness of my detention by the United
States, Department Of Homeland Security, Immigration Custom
Enforcement and in contractual agreement with GEO Corporation for more
than 6 months is unconstitutional.
PRAYER OF RELIEF
56. Wherefore, Petitioner respectfully request that this court;
a. Assume jurisdiction over this matter.
13.

A

b. Award the Petitioner a sum of compensation for the unwarranted
civil detention due to judicial negligence,a violations of the law,
provisions and treaties of the United States Constitution.
c. Grants such relief as the court deems just and proper.
d. Grant an order of release from any further civil detention.

Respectfully Submitted,

Marie
Tanamor- Steffan
3843 Stagg Avenue
Basile, LA 70515

Executed on: 11.11.2020

14.

Additional material
from this filing is
available in the
Clerk's Office.

